United States v. Griffin
United States Court of Appeals for the Second Circuit
April 30,2020, Decided
No. 19-189-cr
Reporter
2020 U.S. App. LEXIS 13879 *
UNITED STATES OF AMERICA, Appellee, v.
JUNIOR GRIFFIN. Defendant-Appellant, MARC
BENVENU'lTI. VERDELL PJCKNEY, AKA
VERDELL DAVIS, AKA V-12, PAUL GIST,
AKA PEEWEE, AKA SWEET PEA, ROBERT
GIST. AKA G-BA BY, CICERO WILLIAMS,
AKA TUBES, JOSEPH ENCARNACION, AKA
CABEZA, KELVIN POLANCO, AKA PSYCHO,
AKA FRESH. JABAR1 ADAMS, AKA FLEA,
AKA BARI, BRANDON SMITH. AKA SKILLZ,
JOSEPH RIVERA, AKA JOJO, CYNTHIA
WOODS. AKA BROOKLYN, KEITH NESBITT,
AKA BALDY, GREGORY HERNANDEZ. AKA
KANE, EDUARDO ROSA, AKA LIL BRO F.D,
LUIS CABAN, AKA JAY, DANIEL RENVIL.
AMANDA LOPEZ, MADELINE OLIVARES,
LANCE WRIGHT, KENNETH LACEN, AKA
MONTANA, JONATHAN PEREZ, MALIK
ABDUL, Defendants.

Notice: PLEASE REFER TO FEDERAL RULES
OF APPELLATE PROCEDURE RULE 32,1
GOVERNING
THE
CITATION
TO
UNPUBLISHED OPINIONS,

Counsel: FOR APPELLANT: JAMES E.
NEUMAN, Law Office of James E, Neuman, New
York. NY.
FOR APPELLEE: DANIELLE R, SASSOON,
Assistant United Stales Attorney (Michael K.
Krouse, Jacob Warren, Won S, Shin, Assistant
United States Attorneys, on the brief), for Geoffrey
S, Berman, United States Attorney for the Southern
District of New York, New York. NY.

Judges: PRESENT: GUIDO CALABRESE
RICHARD C. WESLEY, RICHARD J.
SULLIVAN, Circuit Judges,

Opinion

SUMMARY ORDER
UPON DUE CONSIDERATION, IT IS
HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment of the district court
is AFFIRMED,

Junior Griffin appeals From a judgment of the
Prior History: |*I| Appeal from a judgment of district court (Woods,./.) following a jury' trial in
the United States District Court for the Southern which Griffin was convicted of one count of
District of New York. (Oregon' H. Woods, Judge), conspiracy to distribute or possess with intent to
distribute 280 grams or more of cocaine base and
500 grams or more of cocaine, in violation of 21
U.S.C, § 846, and one count of distribution or

Griffin Exhibit A1

Pape 2 of3
2020 U.S, App, LEXIS 13879, *1

possession with intent to distribute a quantity of
cocaine in violation of 21 1J.S.C, § 841(b)(1)(C).
On appeal, Griffin argues that the district court
erred in denying his motion to sever Counts One
and Two under Federal Rules of Criminal
Procedure 8(a) and 14(a), and |*2| in excluding
certain recorded communications under Federal
Rule of Evidence 807's residual hearsay exception,
We assume the parties’ familiarity -with the
underlying facts and the record of prior
proceedings, to which vve refer Only as necessary to
explain our decision to affirm,
1, Severance of Counts
’’We review' the District Court's denial of a Rule
8(a) motion to sever counts de nova, and conduct a
twofold inquiry; whether joinder of the counts was
proper, and if not, whether misjoinder was
prejudicial to the defendant " United States v.
Htwatt, 678 f,3d 208. 216 (2d Cir, 2012) (internal
quotation marks and citations omitted), As relevant
here, joinder under Rule 8(a) is appropriate where
counts "arc of the same or similar character." Fed.
R. Crirn. P. 8(a). "'Similar' charges Include those
that are ■somewhat alike,’ or those 'hating a general
likeness’ to each other." United States v. Rivero,
546 F3d 245,253 (2d Cir. 2008), We find no error
in joining the two counts at issue here. Counts One
and Two are clearly "somewhat alike," as they both
involved the sale and purchase of the same
narcotic, in the same city, within the some
approximately onc-ycar period. Id. Although the
counts involved sales to different individuals, and
Count One charges a conspiracy while Count Two
charges a single substantive sale, they share a
joinder
making
likeness,"
"general
appropriate. j*3| Id.

United States v. Page. 657 t*.3d 126, 129 (2d Cir.
2011) (internal quotation marks omitted). Griffin
cannot show such prejudice. Notably, evidence of
the substantive sale would likely have been
admissible in a separate trial for Count Oneand
similarly, evidence of his participation in the
narcotics conspiracy would likely have been
admissible in a separate trial for Count Two —
under Federal Rule of Evidence 404(b) as evidence
of intent, knowledge, or opportunity. See, e.g.,
United States v, Pitre. 960 F,2d 1112,1119 (2d Cir,
1992) (finding that where the government was
required to prove that defendants "knowingly or
intentionally conspired to distribute fa narcotic], or
to possess it with intent to distribute," "the intent or
knowledge of [defendants] were clearly at issue,
and evidence of their involvement in prior narcotics
transactions was probative of their intent or
knowledge in connection with the crime charged"):
see also United States v. RoMathZapato, 916 F.2d
795, 804 (2d Cir. 1990) (noting that under the
Second Circuit's "inclusionary approach," evidence
of other (*4| crimes or acts "is admissible for any
purpose other than to show a defendant's criminal
propensity" (internal quotation marks omitted)),
Given the likelihood of admissibility, the district
court's limiting instructions to the jury to consider
the counts separately, and the fad that the court
adjourned the trial by a week to enable Griffin to
prepare for the added count, we cannot say that the
district court abused its discretion in denying the
Rule 14 motion,
2, Exclusion of Recordings

At trial, the government introduced text messages
and calls between Griffin and his co*conspirator,
Jonathan Perez, to establish that Griffin supplied
cocaine to Perez as part of the conspiracy charged
Notwithstanding proper joinder, ft court may sever jn Coun, Qnc Griffin unsuccCssfu|[y sought to
counts to prevent prejudice to a party pursuant to introduce additional call recordings and text
Rule 14, "The denial of a motion to sever under messages between Perez and other suppliers in
Rule 14 is reviewed for abuse of discretion." United order to rebut the government's position that Griffin
States v. Sampson* 385 f.3d 183., 190 (2d Cir. had supplied Perez with cocaine on specific
2004). To succeed on appeal, Griffin must occasjons. On appeal. Griffin chnllenges the district
demonstrate that joinder caused "substantial courf5 exclusion of the evidence ns inadmissible,
prejudice in the form of a miscarriage of justice,"

Griffin Exhibit A2

Page 3 of3

5020 U.S. App, I.EXIS 13870, *4
hearsay, arguing that the communications should
have been admitted under Federal Rule of Evidence
SO?, the so-called "residual" exception to the rule
against hearsay, We review the district court's
evidentiary |*5] ruling for abuse of discretion
subject to harmless error analysis. United Stases v.
Dh'msa. 243 F,3d 635,649 (2d Cir. 2001),
"To be admissible pursuant to the residual
exception, the evidence must fulfill five
requirements;
trustworthiness,
materiality,
probative importance, the interests of justice!,) and
notice." Parsons v. .Honeywell, Jnc., 929 F.2d 901,
907 (2d Cir. 1991). "Congress intended that the
residual hearsay exceptions will be used very'
rarely, and only in exceptional circumstances." }d.
(internal quotation marks omitted). We find no
abuse of discretion in the district court's
determination that: Rule 807’s requirements were
not met, including but not limited to its findings
that Griffin failed to satisfy the notice and probative
importance requirements, Since Griffin first
requested to introduce the evidence after the court
impaneled the jury and after the government had
prepared and provided its exhibits for trial, the
district court reasonably found that Griffin failed to
give sufficient notice to the government of his
intent to admit the evidence, The court also had
reason to conclude that Griffin lacked good cause
for the delay, given the extended discovery, period
mild additional time Griffin was afforded to prepare
the case. Nor did the district court abuse its
discretion in finding that |*6j the evidence was not
more probative on the point for which it was
offered than other evidence the defense might have
introduced. Because Griffin did not establish that
all five requirements were met, the court
permissibly excluded the evidence under Rule 807.
We have considered Griffin's remaining arguments
and conclude that they are without merit. For the
foregoing reasons, the judgment of the District
Court is AFFIRMED.
lEnd «rnoM»rat

Griffin Exhibit A3

Case l:l6-cr-00656-GHW Document 613 Filed 01/08/19 Page l of 7
AO 2*SB (jto. 01'18) Judgment in a Gnmierl Cmr
Shed 1
!

United States District Court
Southern District of New York
)
UNITED STATES OF AMERICA
JUDGMENT IN A CRIMINAL
)
V.
)
)
JUNIOR GRIFFIN
Case Number: 1:16-cr-656-GHW
)
)
USM Number. 78178^54
)
James £. Neuman, Esq.
>
Dcfcndvx'i At«*ey
)
THE DEFENDANTS

CASE

O pleaded guilty to counts)____
□ pleaded nolo contendere recounts)
which was accepted by the court.
0 wn« found guilty on oocnhst)
after a plea of not guilty.

Count 1 ssss iind Count 2ssss.

The defendant is adjudicated guilty of these offenses:
Title & Section

Count

Nature of Offense

Cocairw Base and Cocaine.

2

Tl:c dcfciKlant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.
□ The defendant has been found not guilty on cnunt(s)
Alt open
0Count(e)
□ is

of this judgment- The sentence is imposed pursuant to

0 are dismissed on die motion of the United Slates.

0» mail!
the dcfcimaam must notify the court and United States attorney of material changes in economic circumstances.
January 8, 2019

USDC SONY
DOCUMENT
ELECTRONICALLY FILED
DOC #:_____
DATE FILED:,

Sipuiurrer:

SP 2>

Gregory H. Woods, U.S.D.J.
Nene mi Title el Aider

Ubss

Griffin Exhibit B1

1

Case i:l6-cr*00656-6HW Document 613 Filed 01/08/19 Page 2 of 7

I

AD24JB (Re* Mil?) Jadpnont io Crimint! Cue
9?Kve> 3;—tnariaimamt
Judgmtivi — Page

2 , ■ of

DEFENDANT: JUNIOR GRIFFIN
CASE NUMBER: 1:16-CT-656-GHW

7

;
?•

V

IMPRISONMENT
Hie defendant is hereby committed to Ihe custody oftlie Federal Bureau of Prisons lo be imprisoned for a tola!
term Of:
f20 months on each of oounts 1 and Z to be served concurrently.

S3 The conn nukes the following recommendations to the Bureau of Prisons;

the Court ipoeomtnentfs that the Bureau of Prisons desigrtafe the defendant to an inslitutlen close toNow VorkCily,

Q The tlcfcnilnnl is remanded to the ihisiody of die United Slates Marshal.
P The defendant shall suntnder to the United State Marshal ibr litis district:

a at

□ run.

O p.».

on

□ as notified by the United Slates Marshal.
O The defendant shall swnender for service of Sentence m the inslibifion tfcstjjnalal by the Biircao of Prisons!
Q before 2 p.tn. On

_______

■

□ as notified by the United States Marshal.
O "as notified by the Probation or Pretrial Services Office.

RETURN
1 have executed this judgment as follows;

Defendant delivered on
at

fo

».*

with a certified copy of thisJudgment.
UNtTJiD STATJS MARSHAL

-By

Griffin Exhibit B2

DEPUTY UNITED STATES MARSHAL

Case i:l6-er-006S6-GHW Document 613 Filed 01/08/19 Page 3 of?
ji^snem In uCHmnal C*t*
Sboet 3 ■—■Siipttvlwi jlthma
imtemenl-iPMC

3

of

7 .

DEFENDANT: JUNIOR GRIFFIN
CASENUMBER; 1;l6-er-656-GHW

t
4

SUPERVISED RELEASE
Upon release front iiliprisomflenl, you will he on supervised release for a term of :
5 years on count 1, and 3 years on count 2, to rim concurrently.

mandatory conditions
t. Yoiuuust not commitanoilicrfederal, slate or local crime.
JL You must not unlawfully possess a controlled substance.
3. You must refrain flora any unlawful use of a controlled substance. You must submit to one drag test within 15 days of release flora
imprisonment and m least two periodic dreg lesas tli«eafl«f. as deiennlitod by She court.
O Tire above dreg testing condition is suspended, based on fhe court's determination that yon
■ pose a low risk of future substance abuse. ftHesi
4.
O You must make resirtution In accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution. IWtMif ift)pp!icnli!*l
5.
[*4 You must coopc-rak; in the collection ofDNA ks dheeted by the probation officer, !t*«* tfapptieabtc)
E P You must comply with tire requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 29901; *?/ seq) m
directed by the probation oHiccr, the Bureau of Prisons, or spy state sex offender registration agency in the location where you
reside, work, are a student, or were convicted of a qualifying offense. {tbuck ifapplkabit)
%
£j You mustparticipatein ati approved program fw domestic violence, iWjerJt fagMn

You must comply with the standard conditions that have been adopted by this court aswdi as with any other conditions on (he atladied
page.

Griffin Exhibit B3

4r ■

Case l:16-cr-0O656-GHW Document 613 Filed 01/08/19 Page 4 of 7
AO WiB (Rev. 02/1*1 isiitpacfrt to • Crtraltil (;«»t
Sb«i 3A - - 9uginric«d Htltast

tP«@e

n

Of

T

DEPENDANT: JUNIOR GRIFFIN
CASK NUMBER: 1:16-cr-6S6-GHW

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision, These conditfonsarc imposed
because Drey establish the basic expectations for your behavior while on supervision and identity the minimum tools needed try probeiton
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition,
1.
2.
,
3.
4.
5.

6.
?.

Si,
9,
10.
It.
12,
S 3.

You must report to the probation office in the federal judicial district where you are authorised to reside willtin 72 horns of your
release from imprisonment, unless the probation officer instructs you to report to a differem probation office or within a different time
frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how am!
. when you must report to the probation officer, and you must report to flic probation officer as instructed.
You must not knowingly leave die federal judicial district where you fire authorized to reside without first getting permission from (lie
court or the probation officer,
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
ofrangemffltts (such us the people you live with), you rraist notify the probation officer at least it days before the change. If notifying
(lie probation officer m advance is not passible due to unanticipated circumstances, you must notify Uic probation officer within 72
hours ofbecoming aware of a change or expected change,
You must niiow the probation officer to visit you «t any time at your Itome or elsewhere, and you must permit the probation officer to
take any items prohibited by die conditions of your supervision that he or she observes in plnin view.
You must work full iimo (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless die probation officer excuses
you from doing so, if you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify (he probation officer at least 10 days before the change. If notifying the probation officer nt least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of acliamgc or expected change.
You must no! communicate or internet with someoneymt know is engaged in criminal activity. If you know someone has been
Convicted of a felony, you must not knowingly communicate or interact with that parson without first getting the permission of the
probat ion officer.
If you ore arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours,
You must not own, possess, of have access to a firearm, ammunition, destructive device, or dangerous weapon (i.c., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nur.chakus or lasers}.
You must not act or make any agreement With a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
I f the probation officer detennines that you posse a risk to another person (including an organ ization), the probation officer may
require you to notify ilie person about fits risk and you must comply with that instntciion, Tltc probation officer may contact the
person and confiim that you have notified the potion about the risk.
You must follow the i nstructions of the proteficn officer reiaied to the conditions ofsupcrvlsion.

U.S. Probation Office Use Only
AU.S, probation officer Ins instructed mean the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overnc*1 ofProbation raid Supervised
Release Conditions, available at: www.uscoaits.itQv,
Defendant's Signature

Date

Griffin Exhibit B4

1

Case i:16-cr-00656-GHW Document 613 Filed 01/08/19 Page 5of 7

AO2<SB{Rc\r.02fl$) Judcmcnl i n t Criminal Cuss
.____
Shed 3D ~ Suparisred Htlctie

______.
jwtgmKit—pakc

DEFENDANT: JUNIOR GRIFFiN
.CASE NUMBER; 1:16-cr-656-GHVV

a

T

SPECIAL CONDITIONS OP SUPERVISION
The defendant shall submit his person, residence, place of business, vehicle, and any property or electronic devices under
his Contralto a search on the basis that the probation officer has reasonable suspicion that contraband or evidence of a
violation of the oondtfens of the defendant's supervised release may be found. The search must be conducted at a
reasonable time and in a reasonable manner. Failure to submit to a search may be grounds for revocation. The
defendant shall inform any otherresidenls that the premisesmay be subject to search pursuant to this condition.
The defendant shall provide the probation officer with access to any requested financial Information.
The defendant shall obey the immigration taws and comply with directives of immigration authorities.
The defendant shall be supervised in his district of residence.

Griffin Exhibit B5

. \

1

Case l:16-cr-00656-GHW Document 613 Filed 01/08/19 Page 6 of 7

AO J4JB (Rev. 02/11) JetfgneatlatCrMalCtie
Sted S—Ctimmri Moocmy Pcnuttio

7

Su&mmt—P»s» fi of
»HFEN»ANT; JUNIOR GRIFFIN
CASE N1JMRER: 1:16-cr-656-GHW

CRIMINAL MONETARY PENALTIES

•>

The defendant must pay the tool criminal manetmy penalties under the schedule of payments on Sheet 6.

TOTALS

Atarstmtnt
S 200.00

JVTA Assessment*
$ 0.00

Restitution
S 0.00

Fine
S 0.00

. An Amended Jurigmmi in a Criminal Cait (AO MSQ will bo entered

□ The determination of restitution is deferred until
alter such determination.

□ The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
Ifthc defendantstalcs a partial payment, each pa^eo shah receive an app rox i matel^jpi ro^orti^d^ayment, urdessspeofied otherwise in
siatesf»’^,WymCnt COlmra’ low- However, pursuant to 18 .S. \ § 3664 i), a non
vtct nvs must -pa
Niunc of Payee

“W|

mum-

__ ____ _ KfL»BRttanjhrtgyrt
xnwmwc:

- X~ v^j P '.y;;1-

r~

^EdfiriixJuJEsBsniflgs

}/:

'

■

, .2

v\ w
el.^,

-

ISlafxls;rW
EMMMMSMSESE

■■■

^ .. ■

p ’♦««-» r— * yit- •—■ *^*i—

;
'V

• \

"

V
l.

_

t.- t«-: .-*•• .«

TOTALS

j- • •

^

1 r---''■*

0.00

S

-

S.

'•7

0.00

□

Restitution amount ordered pursuant to pics agreement $

□

The defendant must pay interest on restitution and a fine of more than J2.500. unless the restitution or fine is paid in full before the
fifteenth day after the date of !bc judgment, pursuant to 18 U.S.C. § 3012(f)- All ofthc payment options on Sheet 6 may be subject
to penalties foi delinquency and default, pursuant to 18 U.S.C. } 3612(g).

□

The court determined that the defendant does not have the ability to pay interest and it is ordered that:
□ die interest ref uireroent is waived for the
□ the interest requirement for ihc

□ fine

□ (Inc

□ restitution.

□ restitution is modified as follows:

• Justice fbr Victims ofTrafllckiiie Act of 2015. Pub. L No. 114-22.
** Findings fbr the total amount oflosxes are tequired under Chnptcrs 109A, 110,1 lOA.and 113A of Title 18 for offenses committed on ot
after September 13,1994, but before April 23,1996

Griffin Exhibit B6

IB )!Q!MX3 uimmo

•KJS03 vinos pits uoitt’.jasojdjo jsos Sujpnisu; 'stsos (<}) ptre ‘sop|Buad (s) ‘lasuttsossB VXAf (4) ‘iropnjiissj tojummuos (9) 'iswtui
sutj (5) qedpuutl any (p) isaoni; wtimjisai (c) 'ledputid uotioitisar (y 'iratussssss (j) jspio 8tn«ioi|oj
in paijtMe sq t|®ls swtain^cj

:soims pajiUii a«p oi /padojd fotMOuoj atp «t isamtt spuepUBjap ai|t trojtoj limp wspaajap nqx

O

;{s))sos ijnoa aiiMouq} ot|i Aud tjeqs inepusjop sqj,

□

•impnaastoidjo |so3 aqt X»d |[t>qs (impuajap mu,

Q

‘SitqjdcuddGjt ^BdSuipuadssjjospnc
‘iunoiuy (asiOAOjj pnu utjOf 'isnota y jsio.i. ‘foqmmi itm/iui/ip Sitimipiti) staqumjq assp pin ssuutfj vinipuspta-OQ pus ittupityotT
ttUDAOs pue luiojr

Q

qwsodui; satqsuad Xjeranoui iBmttiua Xue pjemoi opew AisnotASud sjuauirfed tie joj ispaio QAtara tjeqs luepuajap my.
•imos dtp jo jpsp aqj oj spent sub 'uiiii&wj /iqiqisirods-sy pnsusity
aisttinj ^tiosndjo tieswg isispsj atp qfnonp spent sittsraXed ssoqi idasxa ‘omctisd (Octotfow isumrijs gy lusnraoeiiduti jo pofisd sip
?uunp sup st ssupwatl jfceisiiotu pnmuuajs jitauMed ‘|usumo$iJdutt sasodttu watuBpnf snpjt 'ssiMwqtd pdjjpjoXfssaKtxs wq »mos sqi sssjufj

•Xj8j8|paujui! piad eq jteqs sia|top (K)‘002$ P pmome aqt iq tuauissasse lenstfs aqj,
isstiifustlXrmsaoui itJutmuajo uiatuAwToqiSuip.ieitat suopsruisni {spads [21

4

,10 :owg ieqi tu £ed 01 Xttijqe s.tuspiispp sip jo toawssssse us as psscq usjd jtssutfed sip tss him unos sty. •jusumostidim
utojj esmsjw Aye (ttopm Mot *$'*}“ tiiqitM osuaunuos gtM eseopM pasjAjadtis jo tifjotoip ftuuiip lusttvftd D

ft

so luotstiusdrtsjo ui«t
« o) ttrsutussijdiut luoij ssss[sj isye (s&opQv j<> of “}<■»)
SSUSUIUtOS 0) '(i-Jiiafjo m/piant "tfaj
$ jo sitjsurtptisut (fywmU) tyiptmts ‘Srim -a-a}
JO pot.Kld B J»AO
tenhsofTOouiXed □

Q

oauoicuios ot '(uw>f *o tiiimm •&»)
l»nbs lit uiamXott Q
‘A/Ipimui 'iffpiMi •Ss/

g

qt|*\poujqtuosoq Kstn) i<|S)ctpsutuii U|3sq 0) ittowt^Bti Q

g

jo tumiitpnfsrcp JO siqt otp jsytt (step 09 jp ot'%'»)
s JO 5)UMUJ|Bl$UJ
jo pound BJOAO
jo

:{MO|sq j Q

jo -qq

'DO

jo fMopq j O

jo'3
jo

□

'• O

‘ "

onp osutqeq ‘X|ate;poufui; onp

‘3 O tpwv asimpiosoe m
unqt jotsj ton

□
□

5 jq tuauXed tuns dum'] Q

y

iBMoitoj se snp sj sotitBusd Xiipottotu tmiiuius teioi oqijotomtod Med 01 A]|p|v s.iueputissp oip possassc 8uwbki

SXM3M34V4140 311W3IOS
MH9*999-«-9t;l. :^I3awnN 3SVD
NWdiag uotNnr u,NVCiM*t,d3a
i

jo

1

sjSi j—iBittaqtnf

siooutSy jo aptpaps — 9 tMiR
001 Btae^nf fe|fi» **jj| aJBZOV-

1 jo 1 a6ed 6I/80/T0 P0l!d £19 luaujnDoa MH3-9S90CN3-9T:i 3SEo

